<html>
<title> - VULNERABILITIES IN THE U.S. PASSPORT SYSTEM CAN BE EXPLOITED BY CRIMINALS AND TERRORISTS</title>
<body><pre>[Senate Hearing 109-304]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-304
 
              VULNERABILITIES IN THE U.S. PASSPORT SYSTEM
                     CAN BE EXPLOITED BY CRIMINALS
                             AND TERRORISTS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION




                               __________

                             JUNE 29, 2005

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                    U.S. GOVERNMENT PRINTING OFFICE
22-199                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
  Michael L. Stern, Deputy Staff Director Director for Investigations
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                    Kevin J. Landy, Minority Counsel
                      Trina D. Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lautenberg...........................................     4

                               WITNESSES
                        Wednesday, June 29, 2005

Jess T. Ford, Director, International Affairs and Trade, U.S. 
  Government Accountability Office...............................     5
Michael L. Johnson, Former Special Agent in Charge, Miami Field 
  Office, Diplomatic Security Service, U.S. Department of State..     8
Frank E. Moss, Deputy Assistant Secretary for Passport Services, 
  Bureau of Consular Affairs, U.S. Department of State...........    19
Donna A. Bucella, Director, Terrorist Screening Center...........    21
Thomas E. Bush, III, Assistant Director, Criminal Justice 
  Information Services Division, Federal Bureau of Investigation.    22

                     Alphabetical List of Witnesses

Bucella, Donna A.:
    Testimony....................................................    21
    Prepared statement...........................................    66
Bush, Thomas E., III:
    Testimony....................................................    22
    Prepared statement...........................................    69
Ford, Jess T.:
    Testimony....................................................     5
    Prepared statement...........................................    33
Johnson, Michael L.:
    Testimony....................................................     8
    Prepared statement...........................................    49
Moss, Frank E.:
    Testimony....................................................    19
    Prepared statement with attachments..........................    54

                                Appendix

National Federation of Federal Employees, International 
  Association of Machinists & Aerospace Workers, AFL-CIO, Local 
  1998, prepared statement.......................................    75
Reponses to questions for the Record for Mr. Moss from:
    Senator Collins..............................................    90
    Senator Lieberman............................................    92


    VULNERABILITIES IN THE U.S. PASSPORT SYSTEM CAN BE EXPLOITED BY 
                        CRIMINALS AND TERRORISTS

                              ----------                              


                        WEDNESDAY, JUNE 29, 2005

                                       U.S. Senate,
                           Committee on Homeland Security  
                                   and Governmental Affairs
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:31 a.m., in 
room SD-562, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Carper and Lautenberg.
    Chairman Collins. The Committee will come to order. Good 
morning.
    Before I begin the hearing today, I would like to express 
my deepest condolences to my friend and the Committee's Ranking 
Member, Senator Joe Lieberman. Senator Lieberman's mother 
passed away on Sunday, June 26, and he is unable to be with us 
today because he is observing the traditional Jewish 7-day 
period of mourning.
    He is a co-requester with me of the GAO report on passport 
integrity, and I know that he is very concerned and interested 
in this subject. Senator Lieberman will be submitting questions 
for the record, and the record will remain open for 15 days in 
order to receive his materials as well as any others that the 
Committee Members wish to express, but I did want to explain 
the reason for Senator Lieberman's absence since he is such a 
diligent Member of this Committee.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Today the Committee will examine an issue that is central 
to our homeland security and that is the process for issuing a 
U.S. passport. As a new Government Accountability Office report 
makes clear, this process suffers from several vulnerabilities 
that could be exploited by terrorists and other criminals.
    The U.S. passport is the gold card of travel documents. 
Governments worldwide treat it as unassailable proof of 
identity and of citizenship. It opens doors to international 
travel and expedites re-entry to our country upon return. A 
fraudulent passport, however, can be a ticket to criminal 
activity and terrorism.
    Technological improvements have made it extremely difficult 
to counterfeit or alter a U.S. passport, but it is less 
difficult to obtain an authentic passport by fraudulent means. 
A common fraud scheme, accounting for 69 percent of cases 
detected last year, according to the State Department, is the 
use by an imposter of legitimate birth certificates and other 
identification documents belonging to another, in other words, 
identity theft. This scheme is often facilitated by organized 
fraud rings that can provide the imposter with suitable 
documents at a price. One such ring was recently uncovered 
smuggling hundreds of undocumented aliens from Ecuador and 
other South American countries into the United States for fees 
ranging from $12,000 to $14,000 each.
    And there can be no doubt that fraudulent travel documents 
are essential to terrorists. As the 9/11 Commission found: 
``For terrorists, travel documents are as important as weapons. 
Terrorists must travel clandestinely to meet, train, plan, case 
targets, and gain access to attack.'' The Commission reported 
on many instances of al Qaeda's use of fraudulent foreign 
passports. In fact, the Commission's report documents an al 
Qaeda office of passports, which was charged with altering 
passports and other documents. Further, Jihadists were required 
to turn in their passports so that they could be recycled if 
they were killed. The Commission's report also describes how 
the operatives were trained to alter passports.
    Around the world, in Australia, Indonesia, and South 
Africa, among other places, governments are investigating 
passport fraud with clear ties to terrorism. It is not 
surprising, therefore, that former Secretary of State Colin 
Powell described maintaining the integrity of the U.S. passport 
as ``a critical component of our global effort to fight 
terrorism.''
    The GAO report that this Committee requested identifies a 
number of weaknesses in the State Department's efforts to 
detect and prevent passport fraud. These include insufficient 
staffing, training and oversight, and a lack of investigative 
resources dedicated to stopping passport fraud.
    The GAO also raises troubling concerns about the State 
Department's ability to provide adequate oversight of nearly 
7,000 passport acceptance facilities throughout the Nation, 
such as local post offices and courthouses which accept 
millions of passport applications each year. Last year the 
State Department had to stop accepting passport applications 
from one of these facilities when it learned that a corrupt 
county employee in New Jersey was aiding passport fraud by 
selling fraudulent birth certificates to illegal aliens.
    Another fundamental flaw uncovered by GAO relates to an 
issue that Members of this Committee know all too well, and 
that is a profound lack of consistent and effective information 
sharing. It is inconceivable to me that in this post September 
11 world we are still seeing examples of Federal agencies not 
sharing information that is vital to our security. The 
Terrorist Screening Center, which began operating in 2003, has 
a consolidated watch list database of known or suspected 
terrorists. The GAO reports that more than 20,000 names of 
Americans on this watch list were not incorporated into the 
State Department's database for passports. As the State 
Department and the Terrorist Screening Center have 
acknowledged, the failure to share this information means that 
a suspected terrorist could obtain a passport without alerting 
the appropriate authorities.
    The fact that one of these individuals listed on the 
terrorist watch list has applied for a passport would almost 
certainly be significant for purposes of a counterterrorism 
investigation. Moreover, in an appropriate case, the Secretary 
of State could use her authority to deny a passport on the 
grounds that U.S. national's activities abroad are likely to 
cause serious damage to national security. But obviously, if an 
investigation is never triggered because the information is not 
shared, there is nothing that can be done.
    The information-sharing problems go beyond the shadowy 
world of terrorism. The GAO investigation also revealed that 
the State Department name check system does not include the 
names of many Federal and State fugitives, individuals wanted 
for such crimes as murder, rape, robbery, and embezzlement. In 
fact, the CLASS system, the database used by the State 
Department, contains the names of only 50,000 of the more than 
1.2 million Federal, State, and local fugitives in the United 
States. That is less than 5 percent.
    To illustrate the problem, the GAO tested the names of 67 
fugitives wanted for a variety of serious crimes, including 
murder, felonious assault, and child sex offenses. The GAO 
found that fewer than half were included in the CLASS database.
    These fugitives not in CLASS could apply for and receive a 
U.S. passport in their own names and flee the country. In fact, 
one of the Federal fugitives, whose name GAO found was not in 
the CLASS system, did obtain a U.S. passport on May 12, 2004. 
This was 17 months after the FBI had listed this person in its 
database as wanted in connection with an $11 million 
telemarketing fraud. The fugitive was able to obtain an updated 
passport from an embassy abroad after his name was cleared in 
the State Department's database. This occurred despite the fact 
that there was an outstanding Federal warrant for his arrest.
    Perhaps more alarming, one of the names tested by the GAO 
and found not to be in the State Department's database was that 
of Donald Eugene Webb. Mr. Webb, who is wanted in connection 
with the brutal murder of a police chief in Pennsylvania, 
appears on the FBI's Ten Most Wanted List. If someone like Mr. 
Webb could potentially apply for and receive a passport, the 
prospects of denying passports to possible terrorists are even 
more worrisome.
    I am pleased that the Committee's investigation has spurred 
action on this subject. The State Department and the Terrorist 
Screening Center are making arrangements to share information 
on Americans on the terrorist watch list. The State Department 
has informed the Committee that it is near an agreement with 
the FBI's Violent Crimes Section to gain access to more 
fugitive data. The State Department has also taken steps 
recently to improve fraud detection training, enhance 
oversight, and dedicate more resources to fraud investigations. 
These developments are encouraging and welcome, but there is 
much more that remains to be done, and it disturbs me that 
these problems have continued for as long as they have.
    Protecting the integrity of the U.S. passport is essential 
to protecting our citizens from those who would do us harm, 
whether they are terrorists or other criminals.
    I look forward to hearing the testimony of our witnesses 
today as we seek to fortify our defenses.
    Senator Lautenberg.

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. Thank you very much, Madam Chairman. 
Apparently you have set off an alarm through the bureaucracy 
that this is going to be under review and they had better get 
going. This morning I saw on television that there was talk 
between the FBI and the State Department. So you have already 
ruffled the feathers, and it is a good thing that you did.
    You were kind enough, Madam Chairman, to mention Joe 
Lieberman, my dear friend, colleague here, the loss of his 
mother, and I join you in sending our condolences to him.
    My guess is that the United States is the largest issuer of 
passports in the world of any of the countries, but if not the 
largest, certainly among the largest, and the fact that people 
on the terror watch list can get by, the criminals that we have 
identified here is outrageous. The funniest thing is that I 
have seen an example of the failure to connect with the terror 
watch list when it comes to issuing gun permits. We found out 
that they would almost never hit the terror watch list to see 
if someone was on that list, and how could we ignore that?
    So it tells us something, I think, about the general policy 
or the general attitude that permits these people to get by and 
crack our security wall. It has always been important for us to 
maintain our Nation's borders, but it became absolutely vital 
in the wake of the terrorist attacks of September 11.
    In order to keep track of who is crossing our borders, 
coming in and out of our country, we obviously rely on 
passports and visas. A valid U.S. passport is the ticket upon 
return to the country of citizens or those who would purport to 
be eligible passport recipients, that enables a person to enter 
our country and cross our borders at will. So any problem in 
the issuance of a passport is no mere bureaucratic hitch, it is 
a potential threat to our national security.
    Passport fraud often is committed in connection with other 
crimes including those mentioned by the Chairman, including 
drug trafficking, money laundering, and smuggling of illegal 
aliens.
    I know that various Federal agencies including DHS are 
working with the State Department to ensure that people who are 
not entitled to the U.S. passports do not get them. While that 
is comforting, it was alarming to learn that the State 
Department system for checking names on passports does not have 
access to the terrorist watch list or databases of wanted 
Federal and State fugitives.
    Therefore a passport examiner would be unaware if a person 
seeking a passport was suspected of links to terrorism, even 
though our government has compiled a lengthy list of suspected 
terrorists. This looks like the classic example of the left 
hand not knowing what the right hand is doing, and I understand 
the State Department is now negotiating an agreement to make 
this information available, and we say here, the sooner the 
better.
    The passport system also does not contain the names, as the 
Chairman said, of most Federal fugitives even though they are 
legally prohibited from receiving passports. GAO tested the 
names of a number of Federal fugitives and found that many were 
not in the State Department name check system. So it simply 
makes no sense. And as we approach the fourth anniversary of 
September 11, there is no longer any excuse for the bureaucracy 
standing in the way of national security.
    Once again, thank you for calling this hearing, and I look 
forward to the thoughts of our witnesses.
    Chairman Collins. Thank you, Senator.
    I am delighted to welcome our first panel of witnesses this 
morning. Jess Ford is the Director of International Affairs and 
Trade at the U.S. Government Accountability Office and is the 
lead author of the report that we will discuss today. He has 
extensive experience in the areas of national security and 
international affairs, and I want to thank him for doing an 
excellent, thorough investigation.
    Michael Johnson is the Former Special Agent in Charge of 
the Diplomatic Security Service's Miami Field Office, an office 
that I would note is the busiest office in the Nation for visa 
and passport fraud prosecutions. As Special Agent in Charge, 
Mr. Johnson was responsible for all Diplomatic Security Service 
operations in eight States. He, too, has extensive previous 
experience in running security programs at embassies around the 
world, and he currently serves in the Department of Commerce in 
the area of export enforcement.
    I want to welcome both of you, and I thank you for joining 
us.
    Mr. Ford, we will start with your testimony.

 TESTIMONY OF JESS T. FORD,\1\ DIRECTOR, INTERNATIONAL AFFAIRS 
        AND TRADE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Ford. Thank you, Madam Chairman and Members of the 
Committee. I would like my full statement to be submitted in 
the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ford appears in the Appendix on 
page 33.
---------------------------------------------------------------------------
    Chairman Collins. Without objection, all statements will be 
included in the record as well.
    Mr. Ford. I am pleased to be here today to discuss our 
report on the State Department's efforts to strengthen U.S. 
passport fraud detection. Maintaining the integrity of the U.S. 
passport is essential to the State Department's effort to 
protect U.S. citizens from terrorists, criminals, and others.
    The Department issued about 8.8 million passports in fiscal 
year 2004. Each year the State Department passport examiners 
refer tens of thousands of applicants they suspect may be 
fraudulent to their local Fraud Prevention Offices. In fiscal 
year 2004, the State Department's Diplomatic Security Service 
arrested about 500 individuals for passport fraud and about 300 
of them were convicted.
    Passport fraud is often intended to facilitate such crimes 
as illegal immigration, drug trafficking, and alien smuggling. 
Our report addresses three key issues: How passport fraud is 
committed, what key challenges the State Department faces in 
fraud detection efforts, and what effect new passport examiner 
performance standards could have on fraud detection. Today I am 
going to focus my discussion on the first two issues, and I 
will also discuss our recommendations to the State Department 
to respond to them.
    We found that identity theft is the primary tactic used by 
individuals fraudulently applying for U.S. passports. 
Specifically, impostors using other people's legitimate birth 
and other identification documents accounted for about 69 
percent of passport fraud detected in fiscal year 2004, while 
false claims of lost, stolen, and damaged passports and other 
methods accounted for the remaining 31 percent of cases.
    According to the State Department's Bureau of Diplomatic 
Security, passport fraud is often committed in connection with 
other crimes, including narcotics trafficking, organized crime, 
money laundering, and alien smuggling. Fraudulently obtained 
passports can enable criminals to hide their movements and 
activities, and concerns exist that fraudulently obtained 
passports could be used to support terrorism. U.S. passports 
allow their holders to enter the United States with much less 
scrutiny than is given to foreign citizens and also allow visa-
free passage into many countries around the world, providing 
obvious potential benefits to terrorists and criminals 
operating on an international scale.
    Our report details a number of challenges to the State 
Department's passport fraud detection effort, including 
information sharing deficiencies, insufficient fraud prevention 
training, staffing and oversight, and investigative resources. 
These challenges make it more difficult to protect U.S. 
citizens from terrorists, criminals, and others who would harm 
the United States.
    Specifically, the State Department does not currently 
receive information on U.S. citizens listed in the Terrorist 
Screening Center database, which is the Federal Government's 
consolidated terrorist watch list. Nor does the State 
Department routinely obtain information from the FBI on the 
names of individuals wanted on both Federal and State law 
enforcement authority warrants. Therefore, many of these 
individuals are not listed in the State Department's Consular 
Lookout and Support System name check database for passports, 
and they could obtain passports and travel internationally 
without the knowledge of appropriate authorities.
    We tested the names of 67 different Federal and State 
fugitives, some wanted for serious crimes including murder and 
rape, and found that fewer than half were in the State 
Department system. To my left and right are some graphics that 
illustrate the issue.
    The first poster on my right-hand side is a table that 
summarizes the listing of the 37 individuals that we found were 
not in the Consular Lookout System. As you can see in the 
chart, many of these individuals were wanted for serious 
crimes.\1\
---------------------------------------------------------------------------
    \1\ The chart referred to appears in the Appendix on page 34.
---------------------------------------------------------------------------
    To my left is a graphic of the most wanted poster 
individual in the FBI's Ten Most Wanted List, whom we found was 
not in the State Department system. You will note that Donald 
Eugene Webb is a dangerous individual. He is wanted for a 
brutal beating and murder of a police chief in Pennsylvania, 
and the FBI is offering a $100,000 reward for information 
leading to his capture.
    Also to my left is a wanted bulletin for James Stanley 
Eberhart, wanted for involvement in a telemarketing scheme 
which defrauded website investors out of $11 million.
    As the Chairman noted in her opening statement, Mr. 
Eberhart obtained an updated U.S. passport 17 months after he 
had been listed in the FBI's Most Wanted List as an individual 
that they were interested in arresting.
    Finally, the photograph to my right is a bulletin for 
William P. Fischer, wanted by the New York State Police for 
murdering his son and daughter's girlfriend.
    These examples are merely illustrative of the many 
thousands of other wanted fugitives who are currently not 
listed in the State Department's name check system. Although 
the State Department, the Terrorist Screening Center, and the 
FBI have been made aware of this situation, they are now in the 
process of reaching an agreement to try to foreclose this 
vulnerability.
    The State Department does not maintain a centralized 
electronic fraud prevention library that enables information 
sharing on fraud alerts, lost and stolen birth and 
naturalization certificates, counterfeit documents, and other 
fraud prevention resources.
    We found that fraud prevention training is provided 
unevenly at the various passport issuing offices. Some 
examiners have not had formal fraud prevention training in 
years, and training and oversight of a passport acceptance 
agent operations are even more sporadic.
    The State Department does not have any way of tracking 
whether many of the acceptance agent employees are receiving 
required training. It makes oversight visits in only a limited 
number of cases and it does not maintain records of all of the 
individuals in the acceptance facilities, posing significant 
fraud vulnerability.
    Any effect that new passport fraud examiner performance 
standards may have had on the State Department's fraud 
detection efforts is unclear because the State Department has 
continued to adjust the standards. The State Department began 
implementing a new standard in January 2004 to make work 
processes and performance expectations more uniform nationwide. 
Passport examiner union representatives expressed concern that 
the new production quotas may require examiners to shortcut 
fraud detection efforts. However, in response to union and 
examiner concerns, the State Department eased the production 
standards during the rest of 2004 and made other modifications 
to the standards.
    We made six recommendations to the State Department 
designed to improve the coordination and execution of passport 
fraud detection efforts. These included actions to improve and 
expedite information sharing specifically by ensuring that the 
State Department's Consular Lookout System for passports 
contains more comprehensive lists of individuals identified in 
the Terrorist Screening Center, as well as State and Federal 
fugitives.
    We also recommended that they establish and maintain a 
central electronic fraud prevention library.
    We are also recommending that the State Department consider 
designating additional positions for fraud prevention 
coordination and training in some domestic passport issuing 
offices.
    We also recommended that they examine the impact of other 
workload-related issues related to fraud prevention and 
strengthen its fraud prevention training and acceptance agent 
oversight programs.
    The State Department indicated in a response to our report 
that they were taking actions on most of the areas that we 
recommended.
    This concludes my opening statement. I would be happy to 
answer any of your questions.
    Chairman Collins. Thank you, Mr. Ford. Mr. Johnson.

  TESTIMONY OF MICHAEL L. JOHNSON,\1\ FORMER SPECIAL AGENT IN 
 CHARGE, MIAMI FIELD OFFICE, DIPLOMATIC SECURITY SERVICE, U.S. 
                      DEPARTMENT OF STATE

    Mr. Johnson. Good morning. I would like to thank Chairman 
Collins and all the other Members of the Committee for the 
opportunity to appear before you today. Passport fraud is a 
much misunderstood problem, and I am very pleased that the 
Committee is holding a hearing to discuss how it affects our 
country's homeland security, including the possibility that 
weaknesses in the passport issuance regime could be exploited 
by terrorists.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Johnson appears in the Appendix 
on page 49.
---------------------------------------------------------------------------
    For the record, my name is Michael Johnson. I served in the 
State Department's Bureau of Diplomatic Security for 18 years. 
In 1999, I began serving in Diplomatic Security's Miami Field 
Office, rising to be a Special Agent in Charge in 2002 until I 
left at the end of 2004. I would like to add that while I am 
currently the Special Agent in Charge of the Miami Field Office 
of the Office of Export Enforcement for the Department of 
Commerce, I am not here today testifying on their behalf.
    As you know, the State Department is the sole Executive 
Branch Department with the authority to issue passports to 
citizens of the United States. With this authority comes the 
responsibility to maintain the integrity of the U.S. passport. 
The Department's Bureau of Consular Affairs handles much of 
this responsibility, with the task of supporting its mission 
falling to the Bureau of Diplomatic Security's criminal 
investigative programs. Investigating passport fraud is just 
one of Diplomatic Security's responsibilities, which also 
include protecting the Secretary of State and high-ranking 
foreign dignitaries and officials visiting the United States, 
protecting U.S. embassies and consulates abroad, conducting 
personnel security investigations, and training foreign 
civilian law enforcement officers to protect their countries 
from terrorism.
    As Special Agent in Charge of Diplomatic Security's Miami 
Field Office, I was charged with overseeing what has 
historically been Diplomatic Security's busiest field office. I 
believe this places me in a unique position to discuss efforts 
to combat passport fraud.
    Possession of a U.S. passport is important because it 
allows an individual to prove two things: United States 
citizenship and identity. In fact, it is the only official 
government document that establishes both, making the U.S. 
passport the most widely accepted and versatile government-
issued document in the United States. Most consider it the 
``gold standard'' of all passports, and, as a result, it can be 
used throughout the world to establish bank and credit 
accounts, to cash checks, apply for driver's licenses, welfare 
or unemployment, and any other activity requiring an individual 
to prove citizenship or identity.
    There is a common misperception about passport fraud that I 
would like to clear up. First, passport fraud is not primarily 
committed to facilitate illegal immigration. In fact, the 
overwhelming majority of passport fraud cases involve 
applicants who are already in the United States. By 
fraudulently obtaining a U.S. passport, an unscrupulous 
individual will have the document that allows its holder to 
travel into and out of the United States freely, bypassing the 
border requirements for non-U.S. citizens.
    It also provides ironclad proof of an individual's 
identity. The value of this document to an individual trying to 
conceal his identity or blend into American society is obvious, 
given the post September 11 scrutiny placed on non-U.S. 
citizens inside the United States. Stopping passport fraud 
should be at the core of strong border and homeland security 
procedures.
    When discussing the problems posed by passport fraud, we 
should remember that the U.S. passport is an extraordinarily 
difficult document to counterfeit or to fraudulently modify. 
Unfortunately, the same cannot be said for a document used to 
establish eligibility for a passport. The threat to the 
passport comes when bogus versions of these documents, called 
breeder documents, are used in the passport application process 
to falsely establish an applicant's citizenship or nationality 
and proof of identity. Key among these breeder documents are 
bogus birth certificates. Weaknesses in these documents can 
provide unscrupulous individuals a back door method of 
acquiring a U.S. passport.
    Despite the challenge posed to the integrity of the U.S. 
passport, I do not believe that enough is being done within the 
Department of State to protect this vitally important document. 
For example, in my experience, Diplomatic Security Service 
thinks of itself primarily as a security service and tends to 
view passport fraud as a less important part of its mission. 
Because it is not its main priority, sufficient resources are 
not dedicated to fighting passport fraud.
    One way to solve this problem would be to assign additional 
civil service Diplomatic Security special agents to field 
offices for whom they would investigate passport fraud on a 
permanent basis. This would give them the time needed to 
develop sufficient expertise to effectively combat passport 
fraud and would develop a cadre of agents with the expertise to 
take down the fraud rings that are attacking the integrity of 
the U.S. passport.
    Another significant obstacle in combatting passport fraud 
is that Diplomatic Security lacks an analytic capacity. During 
my service in the DSS, I found that there was simply no 
institutional capacity to spot and understand trends, analyze 
information gained from operations, and share intelligence 
across the DSS and other law enforcement organizations. The 
lack of such an intelligence capacity cripples DSS's ability to 
identify and dismantle organizations across the world that are 
involved in the manufacture and sale of counterfeit documents 
used to illegally enter and/or remain in the United States.
    I again want to thank the Committee for holding this 
hearing, and I am now prepared to answer your questions.
    Chairman Collins. Thank you, Mr. Johnson. You made an 
interesting comment that the passport fraud that you have seen 
was not primarily to facilitate illegal immigration and that 
the value of having a U.S. passport is that it allows the 
holder to conceal his true identity. Based on your considerable 
experience, how easy do you think it would be for a terrorist 
to obtain a fraudulent passport?
    Mr. Johnson. I think it would be relatively easy, 
unfortunately, because we know from past experiences that you 
can go anywhere in the United States, any city, and you are 
probably going to find someone on a street corner or somewhere 
who is selling birth certificates, Social Security cards, 
documents that can be used to obtain a driver's license and 
apply for a U.S. passport ultimately. I do not think in my 
experience that these so-called document vendors selling these 
breeder documents would think twice about selling it to someone 
who was here to commit terrorism or bank robbery or anything 
else. They are out to make the quick buck.
    These documents can sell for anywhere from $200 to as much 
as $6,000 for sometimes a very poor quality document. So I 
think it would be relatively easy, unfortunately, for someone 
with these ideas in mind to do this.
    Chairman Collins. Mr. Ford, the GAO found that although the 
Terrorist Screening Center has been operational since December 
2003, the State Department and the Center did not even begin 
exploring the possibility of linking the names in the Terrorist 
Screening Center system with the State Department's name check 
system for passports until December 2004, and it is my 
understanding that even today that link still has not been 
established.
    In your judgment, why did not the Terrorist Screening 
Center start sharing information with the passport name check 
system at the same time that it started sharing information 
with the State Department's name check for visas?
    It is odd to me because there is sharing of information on 
visas, but there appears not to be sharing of information on 
American citizens with ties to terrorism.
    Mr. Ford. It is unclear to us why the information was not 
shared initially when they stood up in December 2003. We have 
been told that the focus initially was on the visa issue. We 
were concerned about foreign aliens, potentially bad people 
that live in other countries. The TSC visa system was set up so 
that they could reduce the vulnerability in the visa world. But 
it is not clear to us why passports were not thought of as 
another potential vulnerability for sharing that information.
    So, again, we never really got a very clear explanation as 
to why the passport area was not considered at the time they 
set up the Terrorist Screening Center.
    Chairman Collins. Mr. Johnson, do you have any insights on 
that? Did the State Department think about asking the Terrorist 
Screening Center for its complete watch list?
    Mr. Johnson. No, ma'am. I have no knowledge as to why that 
was not done.
    Chairman Collins. Mr. Ford, we find a similar problem 
dealing with criminal fugitives and the FBI not sharing the 
names of many State and Federal fugitives, including those, as 
your testimony pointed out, who are wanted for very serious 
violent crimes. Once again my question is the same. Why did not 
the FBI make certain that the State Department had access to 
its list of fugitives in order to prevent one of them from 
getting a passport and fleeing the country?
    The regulations prohibit the issuance of a passport to 
someone with an outstanding Federal warrant. It seems a logical 
step to have been taken.
    Mr. Ford. Well, again, I do not know completely the reasons 
why that information was not being shared. The State Department 
indicated to us early on in our assignment that they believed 
that they were getting Federal warrants through the U.S. 
Marshals Service, and as the course of our work went on, we 
found that, in fact, the U.S. Marshals Service database does 
not contain all Federal warrants and that the FBI is a better 
database, is more comprehensive, and includes not only Federal 
warrants but also State warrants.
    So again, it is not clear to us why this issue was not 
pursued by the Department of State in terms of getting access 
to the information. We do know that there was a dialogue 
between the FBI and the State Department in late 2004 up 
through just recently, we understand, about trying to find a 
way to share this information.
    It is not really clear to us why this was not considered 
early on as a way to again foreclose a vulnerability.
    Chairman Collins. Mr. Johnson, the GAO, in its computer 
match, uncovered a case of a fugitive receiving a Federal 
passport, an American passport, even in just the limited review 
that it did. Have you had any experience with a fugitive trying 
to apply for a passport at the office for which you worked?
    Mr. Johnson. Yes, ma'am. In late 2003 there was an 
individual who had committed a murder in Georgia, and it was 
about 2 or 3 days previously. I guess the police had received a 
tip that this individual was driving to Miami in an attempt to 
get a U.S. passport in his true identity to leave the country. 
So they just called our office. Basically the duty agent 
answered the phone, and it was about 1:30 in the afternoon. And 
the agent said, ``Well, let me go check, take the name and go 
down to the passport agency and check and see if this person 
had applied.'' And in fact, when she went down, the person had 
applied for a U.S. passport and was coming to pick it up within 
the next hour, and the passport was going to be issued.
    So what happened was when he came to pick it up, two of my 
agents detained him and his vehicle, which he had actually used 
in the commission of the crime, and we were able to turn him 
over to State authorities.
    I would add that while he was not a Federal fugitive, he 
was a State fugitive, a very brutal murderer, who later was 
convicted and sentenced to life in prison.
    Chairman Collins. But for that tip, the individual would 
have been able to pick up the passport and flee the country; is 
that correct?
    Mr. Johnson. Yes, ma'am.
    Chairman Collins. So it is not because there was an 
information sharing system in place that this was discovered. 
It was due to a tip which was followed up on quickly.
    Mr. Johnson. Yes, ma'am.
    Chairman Collins. Thank you.
    Senator Carper, I know you are on a tight schedule. I have 
some additional questions for our witnesses, but I would like 
to yield to you.
    Senator Carper. Thank you, Madam Chairman. I was just 
handed a note that said my 10:15 call has been rescheduled for 
3 o'clock.
    Chairman Collins. In that case I will reclaim my time. No, 
go right ahead. [Laughter.]
    Senator Carper. Thanks, Madam Chairman.
    And to our witnesses, thank you for joining us today. I do 
not care who responds to this question. Either of you are 
welcome to. But a person in this country who is interested in 
getting a passport fraudulently, how might they go about it?
    Mr. Johnson. The first thing, as I said earlier, they would 
have to prove is their U.S. citizenship and their identity. 
Typically they would either steal or buy some type of birth 
certificate from a State. In some States, unfortunately, it is 
relatively easy to go in and just get a copy of a birth 
certificate without any proof of identification. So they would 
procure or obtain a birth certificate from some State or one of 
the territories.
    Senator Carper. Could you slow down just for a second? So a 
person alleging to be me or you or anybody else in this room 
might be able to go to an agency within their State and ask for 
a birth certificate, not have to present identification?
    Mr. Johnson. In some cases that is correct, yes, sir.
    Senator Carper. And obtain that?
    Mr. Johnson. Yes, sir.
    Senator Carper. Is that commonplace?
    Mr. Johnson. It happens. I can think of numerous cases 
where that has happened. But if they do not do that, certainly, 
as I indicated earlier, there are plenty of people out there on 
the streets who are illegal document vendors, and you can buy 
blank birth certificates where you essentially fill in the 
blank, what name do you want to use. You can buy birth 
certificates that are legitimate in someone else's identity, 
and then they typically would take that birth certificate and 
apply for a driver's license or a State ID card. And with those 
two documents, that should be sufficient, that is all the 
information that is really needed to go and apply for a U.S. 
passport. It can be a relatively simple process.
    Senator Carper. Mr. Ford, would you concur with that?
    Mr. Ford. Yes. In our discussions with the Diplomatic 
Security Service, the individuals who investigate these type of 
cases, use of eligibility documents like driver's license, 
birth certificates can be used as a vehicle to illegitimately 
get a passport.
    Senator Carper. My staff, as they sometimes do, gave me 
several questions that I might want to consider asking. The 
first question starts off and says, it seems to me like our 
first line of defense against passport fraud are the men and 
women who work at places like the Postal Service that accept 
passport applications and forward them to the State Department 
for review.
    In listening to this testimony today, Madam Chairman, I am 
reminded the first line of defense probably is not the Postal 
Service, it probably starts well before that in some of these 
agencies that you are talking about that can issue a driver's 
license or a birth certificate, or for the lack of enforcement 
to crack down on folks who might be out on the streets trying 
to sell these bogus documents.
    How do we confront and deal with the sort of situations 
that you just described?
    Mr. Johnson. One, I think this is a big step because I 
think it serves as a recognition that on Capitol Hill everybody 
is looking at this, is this a problem. I am of the mindset that 
we should always be proactive and not just react, and I think 
if you give, for instance, Diplomatic Security the adequate 
special agent resources to actively pursue these so-called 
document vendors, I think you start in a proactive manner, 
starting to eliminate and make it very difficult for these 
people on the street to vend these and sell these documents.
    Another way, quite frankly, is the sentences handed down 
when you have someone convicted of passport fraud are very 
small typically.
    Senator Carper. Give us some idea what the range of 
sentences might be for a first offense and multiple offenses.
    Mr. Johnson. Someone with no criminal history, never been 
convicted of a crime, they typically would get probation if 
convicted of passport fraud. I can remember cases where someone 
who has maybe been arrested multiple times on very heinous 
crimes but never convicted. Therefore, it does not kick it up 
in terms of the guidelines. So what would happen, that person 
would get essentially probation or certainly less than 6 
months, and I think that is a huge problem in the system 
because it serves as no deterrence and it serves as no 
punishment. I think if we recognize that it is something that 
we want to go after, then we have to have a punishment that 
meets the crime. In my estimation it totally undermines a lot 
of our homeland security efforts by allowing these people to go 
out there and commit this crime.
    Senator Carper. In whose courts would crimes of this nature 
be tried, and in your own view--and this would be for either of 
you--what might be more appropriate sentences, particularly for 
multiple offenses?
    Mr. Johnson. These are all going to be tried typically in 
Federal courts, U.S. Attorneys Offices around the country 
prosecuting these cases.
    We did a big study a couple of years ago trying to promote 
the U.S. Sentencing Commission an initiative to raise the so-
called guidelines, base offense levels for passport and visa 
fraud. We did a pretty in-depth study in terms of what would be 
appropriate, and essentially, we looked at some of the other 
like crimes, for instance, perjury before a government official 
or a grand jury, false statements to a Federal agent. Typically 
those crimes can get someone in the 18- to 24-month time frame. 
And we sort of made the connection that, OK, if you are 
fraudulently applying for a U.S. passport you are essentially 
under mining homeland security. That we think would be 
appropriate range for someone who commits this crime.
    Senator Carper. Mr. Ford, any thoughts?
    Mr. Ford. We really did not look at the sentencing issue 
per se. The few cases that we identified that we did some 
research on, we found that although the sentencing for passport 
fraud may not have been extensive in terms of amount of time, 
often they were connected to other much more violent crimes, so 
the individual, in a few cases that we looked at, would be 
prosecuted for the more violent crime. So the fact that they 
were apprehended allowed Federal or State authorities to 
prosecute them for more violent crimes, which of course had 
much longer potential sentences. But we have not studied this 
issue.
    Senator Carper. Share with us, if you would, the range of 
the kinds of people who might be seeking a passport 
fraudulently. The ones we might be most concerned about are 
those who may be terrorists or seek to commit some terrorist 
act. I am sure there are some that are more benign. But just 
give us the range of uses or backgrounds of the people that we 
are concerned about here.
    Mr. Johnson. Certainly in the 5 years I was in Miami, the 
extremes were several murderers that were attempting to get 
U.S. passports and different identities. I can think of 
probably two or three cases right off the top of my head where 
someone wanted for murder in a State was attempting to get a 
passport in a totally different identity, bank robbers----
    Senator Carper. For the purpose of leaving?
    Mr. Johnson. For the purpose of leaving or just melding 
into society. There was one case where it was an individual out 
of Maryland who had allegedly killed a person and seriously 
injured another. He came down to Florida, bought one of these 
rather cheap counterfeit Virgin Islands birth certificates.
    Senator Carper. What do they cost?
    Mr. Johnson. I do not recall what these things range. One 
person paid $6,000 for one of these documents. I mean on face 
value you could tell it was not a very good document, but to 
the criminal, OK, it is $6,000, it must be worthwhile.
    Senator Carper. What do they go for up in, say, Bangor, 
Maine? [Laughter.]
    Just kidding.
    Mr. Johnson. I am thinking about the Miami market. So this 
individual came to South Florida, bought one of these 
counterfeit Virgin Islands birth certificates, had the name 
typed in using a totally different made-up name. And I had a 
really impressive agent who worked the case, realized right up 
front that it was a fraudulent case. He went and got an arrest 
warrant in that bogus identity because our efforts to find him 
were negative. So he put him in NCIC, and then a short while 
after that a police officer in Palm Beach County stopped this 
individual on the street corner, and the individual handed him 
his driver's license and this bogus identity, and the warrant 
came up wanted by Diplomatic Security for passport fraud. So we 
still did not know who this individual was.
    We put him into our custody, fingerprinted him, and soon 
after the fingerprints came back from the FBI we realized who 
he was because he was wanted for murder in Maryland. And that 
is a classic example of had it not been probably for an 
aggressive young Diplomatic Security agent, this murderer, who 
had a totally clean identity, and apart from having been 
fingerprinted and having his fingerprints in NCIC, he might 
still be walking free.
    Senator Carper. Madam Chairman, my time has expired. Could 
I ask one more question?
    Chairman Collins. Certainly.
    Senator Carper. Thank you very much.
    Talk to us about what other ways that we can, using 
technology that we have today, that we can better ensure that 
the person who is applying for a passport is indeed the person 
that they say they are.
    Mr. Johnson. There are so many different governmental 
databases, law enforcement, intelligence, private sector, in my 
mind something as important as issuance of a passport, you 
should have as many cross-checks as possible. To me, having 
stovepipes of different systems where only certain agencies can 
get to it, or even stovepipes within your agency, totally 
defeats what we are trying to do here. To the extent possible, 
even if we have to pass laws to allow NCIC to be passed to 
Consular Affairs, then maybe that is what we need to do because 
I think we have to be extremely aggressive in developing 
systems, intelligence and law enforcement sharing to prevent 
these types of things. To me that is a big step.
    Senator Carper. Mr. Ford, would you answer the same 
question, please?
    Mr. Ford. I totally concur that I think the issue of 
sharing appropriate information with all the various parties 
involved is critical to this process because the examiners in 
the passport area, if they do not get a hit that an individual 
is somebody they ought to be worrying about, then they are not 
going to know not to approve the documentation for the 
passport. I think this is the most critical issue.
    I think with regard to at least the management of the 
process, and as we say in our report, there is a need for more 
training. Training was very inconsistent in the passport 
offices. The acceptance agents, we have 7,000 of those around 
the country. It is not clear to us to what extent individuals 
at post offices and county clerks, places like that, are well 
trained in this area. So I think our focus is on better 
training, better awareness of what some of the fraud indicators 
are, better information sharing, that those things in total 
should help prevent fraud more than it is currently based on 
our analysis.
    Senator Carper. The last thing, just as succinctly as you 
can, what should we do? Senator Collins, our Chairman, those of 
us who serve on this Committee, what should we do?
    Mr. Ford. I think that the one issue, again, we have not 
studied it in detail, but I think there are some legal issues 
regarding what can be shared between the law enforcement 
community, basically the FBI and the State Department, that may 
require some legislative changes.
    Senator Carper. Mr. Johnson, what should we do?
    Mr. Johnson. I would hope that as a result of these 
hearings, that the Department of State, both in Consular 
Affairs and in Diplomatic Security, would come forward with 
some initiatives for additional resources. Throughout the 
report they cite resources as one of the problems, and quite 
frankly, I think that is something that this Committee maybe 
can help them resolve.
    Senator Carper. Our thanks to both of you. Thanks, Madam 
Chairman.
    Chairman Collins. Thank you.
    Mr. Johnson, I want to follow up on that last question. We 
have talked a lot about the vulnerability created by a lack of 
information sharing. You have been on the front lines. You have 
mentioned that the inadequate penalties are another issue that 
needs to be addressed, but what about staffing, training? Is 
there a sufficient staff that is dedicated to passport fraud? 
Talk to us more if you will about the personnel and resource 
constraints that the GAO identified.
    Mr. Johnson. I will sort of split in both halves, first 
with Consular Affairs and their passport agencies. I was still 
at the Agency when they made the decision to eliminate their 
assistant fraud program managers. This was I think in early 
2004. I recall at the time telling the various Consular Affairs 
officials that I really felt that was not a very good idea. 
Many of these assistants had been in those jobs for years and 
years, and had a great deal of local and national knowledge 
when it came to fraud. I recognize what the Department's idea 
was, to rotate the examiners through to get everybody a little 
bit of a sharing of how fraud works, but in my mind, why not 
leave the assistants there and then still rotate? You are in 
essence multiplying your ability to identify fraud.
    I guess they had their reasons for doing it. To me, coming 
simplistically from a law enforcement standpoint, they 
literally are the ones who have to identify the fraud. Why 
would you want to shorten or potentially shorten or short staff 
yourself? I think that is one thing from a resource standpoint, 
that if anything, they should be beefing this up. I know that 
they are looking at a period where the issuance of passports--
they are looking at maybe from 8 million to potentially 12 
million. With that is going to come a lot more fraud. I think 
you should be beefing up your efforts as opposed to cutting 
back or shorting.
    On the Diplomatic Security side, there is no organization 
that is better at doing what they do, but the problem is they 
have too many missions. The summer of 2004 in my field office 
at the time was approximately 50 special agents, and at any 
given time I would have five or six of my agents on rotation to 
Baghdad to the temporary duty assignments in Iraq, not to 
mention Kabul, Afghanistan, and other protective security 
details. So it was literally moving chess pieces. Who am I 
going to have this week? Because those agents were being pulled 
for other priority missions.
    I think there has to be a recognition that this is a 
problem and that they have to dedicate the number of resources 
they need to combat this problem, and that is simply what it 
comes down to. I think they have the expertise, but they need 
the intelligence, as I mentioned in my statement, they need 
intelligence ability, and they just quite simply need more 
agents.
    Chairman Collins. Mr. Ford, I could see you nodding your 
head in agreement when Mr. Johnson was outlining the personnel 
and resource challenges. What did the GAO find with regard to 
adequate staffing and also the elimination of the assistant 
fraud manager position?
    Mr. Ford. We visited 7 of the 16 passport offices, and we 
telephonically contacted the fraud prevention managers in all 
the other offices. A fairly consistent message we heard was 
that the elimination of the assistant fraud prevention manager 
was viewed as hurting the effort to look at fraud.
    The Department wanted to expand training by having 
individuals put in a rotational program. That made sense to us, 
but the elimination of the assistant position, given the 
workload problems that the fraud managers had in most of the 
posts we visited, did not seem like was a good idea to us. Our 
recommendation, basically we went to the State Department and 
said, we think you need to reexamine the overall staffing 
profile here because, again, the message was fairly consistent 
in almost every passport office we visited. They said that this 
is hurting the effort to identify potential fraud.
    As Mr. Johnson indicated, if the volume of passports is 
going to continue to grow over the next several years, it seems 
the problem will be compounded unless there is enough people 
out there who are trained in fraud prevention to really put a 
kink into the potential that could be out there of the country 
being vulnerable.
    Chairman Collins. Mr. Johnson, in your testimony you 
describe fraud rings that sell bogus breeder documents such as 
birth certificates that are in turn used to secure a passport. 
What is your evaluation of Federal efforts to crack down on 
these fraud rings? Is there an organized Federal effort to go 
after these rings that are selling the breeder documents?
    Mr. Johnson. Not that I am aware of. I think it really 
always came to--and I have worked all over the country in the 
passport fraud arena--and it always came down to regional 
nuances. I mean in some regions you might have--Diplomatic 
Security would be aggressive in pursuing these document 
vendors, and maybe the former Immigration, now Homeland 
Security, ICE, would be aggressive. Other areas, the FBI might 
have an interest, but unfortunately, I cannot say across the 
board that any particular agency or any group of agencies would 
wholeheartedly go after these rings. In my mind, again, I think 
that is a little bit of a lapse, that we need to sort of have a 
consolidated across the U.S. approach to combating this 
problem.
    Chairman Collins. That does seem to be an important gap 
because if you can break the rings that are providing the bogus 
documents, you prevent the person from getting the passport in 
the first place.
    Mr. Johnson. If I might add, sometimes--and I think the 
report refers to this--that most of these individuals were not 
successful in getting these passports issued, but you still 
have an individual with a new birth certificate and a new 
identity. While he or she may not have gotten the passport, 
they are still out there walking around with a driver's license 
and a birth certificate and a different identity. What are they 
doing? It is just something that maybe the State Department 
will--I am just saying that is a whole----
    Chairman Collins. A whole other area for us to crack down 
on. Thank you.
    Mr. Ford, just one final question. On its comments on the 
GAO's report, the State Department points to a new series of 
unannounced audits that it is conducting that it started in 
April to determine the effectiveness of anti-fraud programs at 
various passport offices. And the State Department officials 
have trumpeted these results in saying that they show only very 
minor errors. What is your response to that?
    Mr. Ford. First of all, we have not examined their audits 
in detail. We have seen some information regarding the reported 
results. With regard to the issue that it appears to be a minor 
problem, looking at their analysis, I believe they extrapolated 
their sample by indicating there could be the potential for 
4,000 cases, if they extrapolated to all the passports being 
issued. If that were the case, since I believe they referred 
around 3,200 cases last year, that would indicate that the 
potential for fraud is a lot greater than what was reported 
last year through their fraud prevention system.
    So again, I have not examined it in detail. I think it is 
good that they are doing it, but it does point to the fact that 
the potential for more fraud out there may be greater than what 
they suggest.
    Chairman Collins. Thank you very much for your testimony. 
Senator Carper.
    Senator Carper. I have no further questions. Again, our 
thanks to both of you. Thanks, Madam Chairman.
    Chairman Collins. Thank you very much. Your testimony has 
been extremely helpful, and we look forward to working further 
with you.
    Mr. Ford. Thank you.
    Mr. Johnson. Thank you.
    Chairman Collins. I would now like to call forward our 
second panel, which brings together three accomplished Federal 
officials with the responsibility for issues related to the 
security of the U.S. passport system.
    Frank Moss is the Deputy Assistant Secretary of State for 
Passport Services. He is responsible for overseeing the 
processing of some 8.8 million passport applications last 
fiscal year.
    Donna Bucella is the Director of the Terrorist Screening 
Center and is on detail to the FBI from the Transportation 
Security Administration, where she was the Southeast Area 
Director.
    Thomas Bush began his FBI career in 1975 in the 
Identification Division. Last December he was appointed by 
Director Mueller to be the Assistant Director of that division, 
now called the Criminal Justice Information Services.
    I want to thank all of you for being here today, and we 
will start the panel by hearing Mr. Moss's testimony.

 TESTIMONY OF FRANK E. MOSS,\1\ DEPUTY ASSISTANT SECRETARY FOR 
PASSPORT SERVICES, BUREAU OF CONSULAR AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Mr. Moss. Good morning, Madam Chairman and Members of the 
Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Moss with attachments appears in 
the Appendix on page 54.
---------------------------------------------------------------------------
    I am pleased to be here today to discuss how the State 
Department is responding to concerns raised by the Government 
Accountability Office in its report, ``Improvements Needed to 
Strengthen U.S. Passport Fraud Detection Efforts.'' I want to 
thank the GAO and especially their lead examiner, Michael 
Courts, for their hard work on this project. As the GAO report 
recognizes, the Department of State, especially the Bureau of 
Consular Affairs and the Diplomatic Security Service, are 
working hand in hand with elements of the Homeland Security and 
Justice Departments to protect the integrity of the U.S. 
passport. We acknowledge, however, that it is always possible 
to improve, and welcome GAO's observations and suggestions.
    The integrity of the passport rests upon three major 
elements, the quality of the adjudication process, the security 
features of the passport itself, and the introduction of 
biometrics to make certain that the passport can only be used 
by the person to whom it is issued. This is what I illustrate 
on this charts to my right.\2\ Taken together these elements 
form a comprehensive approach to passport security. Securing 
the document and the adjudication process is particularly 
important in an era when terrorists, transnational criminals, 
and others seeking to enter the U.S. illegally, view travel 
documents as valuable tools.
---------------------------------------------------------------------------
    \2\ The charts referred to appear in the Appendix on pages 63-65.
---------------------------------------------------------------------------
    While my written statement discusses this in greater 
detail, let me highlight for the Committee just a few steps we 
are taking to improve the passport's design and to introduce 
biometrics.
    We recently completed the first cover-to-cover redesign of 
the passport in more than a decade. The new document will 
include a host of new security features. These include 
sophisticated new art work, printing techniques used in the 
current generation of U.S. currency, and other changes that 
will significantly increase the physical security aspects of 
the U.S. passport.
    This next generation U.S. passport, the e-passport, also 
includes biometric technology that will further support the 
government's border security goals. The e-passport includes a 
contactless chip in the rear cover that will contain only the 
data on the biographic data page of the passport and a digital 
image of the bearer. I am happy to share examples with the 
Committee, and some of the art work here to my left 
demonstrates the new security features and some of the other 
aspects of the new passports.
    Let me discuss the GAO's recommendations and how the 
Department of State is implementing them. We agree with the GAO 
that enhanced interagency data sharing can significantly 
improve passport adjudication. We have taken numerous steps to 
meet that objective. For example, in April 2004 we signed an 
MOU with the Social Security Administration that allows us to 
verify Social Security numbers of U.S. passport applicants. We 
have a longstanding and effective working relationship with 
Federal law enforcement agencies. Today we have nearly 50,000 
names of fugitives or other persons of interest to law 
enforcement in the passport lookout system. Half of those 
entries were made individually as a result of our outreach 
efforts. The other half are based on data transfer from the 
U.S. Marshals Service on persons subject to Federal fugitive 
warrants.
    To complement this information, we are working with the FBI 
to add to the passport lookout system an extract of information 
from their NCIC database. I am happy to report that last week I 
received a letter from Mr. Bush that responds positively to our 
request for access to this information. We appreciate this 
positive response which we believe will enable us to include in 
the passport lookout system information on persons subject to 
State or local warrants. This is a long-sought objective of 
ours.
    We have also just signed an agreement with the Terrorist 
Screening Center that will provide us information on American 
citizens who may have a nexus to terrorism or to an ongoing 
investigation. Under this agreement the State Department will 
inform the TSC whenever any such individual applies for 
passport services. In addition, the Department of State 
provides the National Counter Terrorism Center, NCTC, access to 
our PRISM database which includes images of all passport 
applications since 1994 including the photographs of the 
applicants.
    GAO also recommends creating a national fraud library of 
suspect documents. There are several different resources 
containing such information, and we agree that finding a way to 
bring them together is desirable. In this regard we are 
pursuing access to the U.S. Secret Service's Questionable ID 
Documents (QID) database. This database includes sections on 
valid documents, stolen documents, and on counterfeits and 
alterations. A significant advantage to this initiative is that 
we at the State Department can contribute to the Secret 
Service's database, and therefore assist them in their mission, 
and of course it will also allow us to avoid significant 
development costs because we will piggyback on what the Secret 
Service is already doing.
    The GAO recommends designating additional positions for 
fraud prevention coordination and training in domestic passport 
agencies and establishing a more formalized fraud prevention 
training program. We agree and have taken several steps to make 
this happen. We are adding more fraud prevention managers to 
the staffs of our larger passport agencies. We have increased 
the number of persons working in the fraud offices as well as 
the length of time they spend there. These are on rotational 
assignments. This will have a direct, positive impact on 
improving training provided to the passport specialists who 
adjudicate passport applications and stand as the first line of 
defense against passport fraud.
    Finally, under a Washington-based reorganization, we will 
add to the staff that coordinates and backstops fraud 
prevention operations. Part of the work of that expanded staff 
will be to develop a national fraud training program for 
passport specialists.
    The GAO also looked at workload transfers from one domestic 
passport agency to another. We do this, quite honestly, to make 
the best use of our issuance capabilities nationwide. A 
theoretical risk in doing so is that we could miss 
opportunities to identify fraud. We believe that we address 
this risk successfully through our selection of highly skilled 
fraud program managers, by rotating senior passport specialists 
through the Fraud Program Management Office, so that they can 
assist and better train their staff, and by training all of our 
newly hired specialists centrally.
    Finally, the GAO suggested increased training and oversight 
of the more than 7,000 passport acceptance agents nationwide. 
These are, as you noted in the earlier round of testimony, 
principally U.S. Postal Service employees and clerks of court 
who accept applications from U.S. citizens and identify the 
passport applicant as the person he or she claims to be. This 
is, of course, only the first step in the passport adjudication 
process.
    Improved training is already under way through use of 
Computer Based Training modules developed in cooperation with 
the U.S. Postal Service that we are also adopting for use by 
other facilities and deliverers of acceptance agent services.
    We are also exploring initiatives to better monitor the 
quality of the acceptance agents' work.
    Chairman Collins, other Members of the Committee, thank 
you, and at this time I am happy to answer any questions you 
may have.
    Chairman Collins. Thank you very much. Ms. Bucella.

TESTIMONY OF DONNA A. BUCELLA,\1\ DIRECTOR, TERRORIST SCREENING 
                             CENTER

    Ms. Bucella. Good morning, Chairman Collins. Thank you for 
the opportunity to discuss the missions and objectives of the 
Terrorist Screening Center as they relate to information 
sharing with the Department of State.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Bucella appears in the Appendix 
on page 66.
---------------------------------------------------------------------------
    The mission of the Terrorist Screening Center is to 
consolidate the government's approach to screening terrorism 
and to consolidate the identities of all known and suspected 
terrorists into a single database.
    The Terrorist Screening Center represents one of the most 
unique support organizations to terrorist screening and law 
enforcement operations ever conceived or implemented. The TSC 
has been providing key resources since December 1, 2003, 
including a single coordination point for terrorist screening 
data, the Terrorist Screening Center's database, a 24/7 call 
center for encounter identification assistance, access to 
coordinated law enforcement response, a formal process for 
tracking encounters, encounter feedback to appropriate 
entities, and a process to address misidentification issues.
    Since the TSC was established, the Department of State has 
been a significant contributor to all of our overall success. 
The Department of State is a full partner at the TSC, and one 
of my executive deputies is a Department of State detailee. The 
close on-site partnership with the Department of State has 
enhanced our ability to administer the Visa Security Advisory 
Opinion Review, the Visa Revocation Review, and nominations to 
our database. Additionally, the Terrorist Screening Center and 
State are working to ensure that appropriate officials will be 
notified when a U.S. person is listed in the TSDB and/or 
applies for a new, renewed, or amended U.S. passport. And we 
have signed that agreement.
    Visa Security Advisory Opinions are generated by the 
Department of State Consular Affairs officers when a visa 
applicant is, in fact, a possible match to the CLASS system. 
The Department of State personnel at the Terrorist Screening 
Center have reviewed over 138 Security Advisory Opinions since 
December 1, 2003, our inception.
    Visa Revocation Reviews are conducted for new entries into 
our database to determine if those new entries have been issued 
visas before the derogatory information surfaced. The Terrorist 
Screening Center has reviewed over 52,000 new names to our 
Terrorist Screening Center database, and we have alerted the 
Department of State to about 850 cases of possible visa 
revocation.
    The Department of State specialists assigned to the 
Terrorist Screening Center play a very important role in the 
Terrorist Screening Center nominations process. The specialists 
have the expertise to ensure that foreign individuals nominated 
for inclusion into the Terrorist Screening Center database are 
thoroughly evaluated and made available to overseas posts.
    The screening of U.S. passport applications, a highlight of 
the May 2005 GAO report, is a collaborative initiative that 
began this past January when it was identified as a 
vulnerability and basically a screening opportunity, and 
proposed by our State Department representative that we get the 
names of U.S. persons listed in the TSDB and make them 
available to the Department of State during the passport 
application process.
    As I mentioned, the Memorandum of Understanding (MOU) has 
been signed. The TSC looks forward to continued collaboration 
with the Department of State on this project. Since Homeland 
Security Presidential Directive 6 was issued on September 16, 
2003, the Terrorist Screening Center and the Department of 
State have been partnering to protect our Nation's security 
through the robust sharing of terrorist information. The 
Terrorist Screening Center has provided support to those 
functions identified by the Department of State as priorities 
and will continue to expand our relationship. This close and 
continuing cooperation contributed to worldwide efforts to keep 
terrorists out of the United States and locate those who may 
already be in our Nation.
    The Terrorist Screening Center thanks the Committee for the 
opportunity to provide clarity and looks forward to continued 
work with the Committee in TSC's efforts to consolidate the 
government's approach to terrorist screening.
    Thank you.
    Chairman Collins. Thank you. Mr. Bush.

   TESTIMONY OF THOMAS E. BUSH, III,\1\ ASSISTANT DIRECTOR, 
CRIMINAL JUSTICE INFORMATION SERVICES DIVISION, FEDERAL BUREAU 
                       OF INVESTIGATION.

    Mr. Bush. Good morning, Madam Chairman, and Members of the 
Committee, and our condolences to Senator Lieberman and his 
family.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bush appears in the Appendix on 
page 69.
---------------------------------------------------------------------------
    As you mentioned, I am the Assistant Director of the FBI's 
Criminal Justice Information Services Division, otherwise known 
as CJIS. By way of background, CJIS is responsible for five 
services to law enforcement: Fingerprint identification; 
uniform crime reporting; National Crime Information Center, 
also known as NCIC; the National Instant Criminal Background 
Check System; and Law Enforcement Online.
    NCIC, the service which is of interest to this Committee 
today, is a computerized database of documented criminal 
justice information available to virtually every law 
enforcement agency nationwide, 24 hours a day, 365 days a year. 
Since its inception, NCIC has been a highly effective tool for 
information sharing with local, State, tribal, and Federal 
entities. NCIC is operated under a shared management concept 
between our State and local and Federal criminal justice users. 
The database currently consists of 18 files, 7 property files, 
and 11 person files to include the Wanted Person Files.
    During NCIC's first year of operation, which was 1967, 2 
million transactions were processed. In May of this year, NCIC 
processed an average of 4.6 million transactions per day, with 
an average response time of less than 0.06 seconds. On May 27 
of this year, NCIC processed a record 5.2 million transactions 
in a 24-hour period.
    I would like to outline some of NCIC files and features 
that assist in immigration and border security. The Foreign 
Fugitive File, established July 1, 1987, contains information 
on persons wanted in connection with offenses committed outside 
the United States. There are two types of records in the 
Foreign Fugitive File--Canadian records and INTERPOL records.
    The Immigration Violator File was established on August 25, 
2003. In 1996, NCIC implemented the Deported Felon File. Today, 
this is now a category of records within the Immigration 
Violator File. Immigration Violator File includes two 
additional categories of records, individuals wanted as 
absconders, and individuals in violation of the National 
Security Entry/Exit Registration System or NSEERS. As of July 1 
of this year, there were 163,000 plus records in the NCIC 
Immigration Violator File.
    The Violent Gang and Terrorist Organization File, or VGTOF, 
was implemented in December 1994. This file was designed to 
provide identifying information about violent criminal gang and 
terrorist organization members to protect the law enforcement 
community and the public. Traditionally, NCIC Person Files 
serve the needs of the criminal justice community and are 
supported by the judicial process. Most typically, a warrant is 
on file. However, with the creation of VGTOF, that philosophy 
was expanded to support law enforcement, investigative and 
information needs related to terrorism. When the Terrorist 
Screening Center became operation in December 2003, the FBI 
CJIS Division modified the NCIC VGTOF file to support TSC's 
mission.
    VGTOF is the means to make the terrorist screening 
information available to the law enforcement community 
nationwide. When an officer hits on a VGTOF terrorist record, 
he is instructed to contact TSC for additional information on 
the subject.
    The Department of State Bureau of Diplomatic Security is a 
fully authorized NCIC user when conducting criminal 
investigations. Additionally, the FBI has provided the 
Department of State Bureau of Consular Affairs with extracts of 
the NCIC Wanted Person, Immigration Violator, Foreign Fugitive 
files, VGTOF, and the Interstate Identification Index on a 
daily and weekly basis for inclusion in its Consular Lookout 
and Support System, as required by Section 403 of the U.S. 
PATRIOT Act. The Department of State uses the information to 
ascertain whether visa applicants have records indexed in NCIC 
which might preclude the issuance of a visa.
    In April 2005, CJIS received a request from Department of 
State Passport Services for an extract of the FBI fugitives 
contained in the NCIC system. Our immediate response was that 
the FBI fugitives in NCIC, which is approximately 7,000, 
represent only a fraction of the more than one million felony 
and serious misdemeanor wanted person records entered into 
NCIC. We requested that DOS Passport Services work with us 
toward the ultimate goal of system interoperability and direct 
NCIC access for passport screening. As an interim step toward 
this goal, we have agreed to and have provided the requested 
extracts to them as recently as, I believe, Monday of this 
week.
    In closing, I would like to thank you for allowing me the 
opportunity to explain the use of NCIC for immigration and 
border security. I would now answer any questions you might 
have.
    Chairman Collins. Thank you, Mr. Bush. It looks like there 
has been some considerable progress made in the past few days.
    Let me start, Mr. Moss, with a threshold question for you. 
Do you believe that terrorists are trying to get their hands on 
U.S. passports? Is this a problem?
    Mr. Moss. Madam Chairman, I am unaware of any reports of 
terrorists themselves, people we knew were involved in 
terrorism, attempting to get a U.S. passport.
    Taking it a little bit more broadly though, obviously we 
are concerned about anyone who may be seeking a passport in 
order to flee prosecution or to engage in activities inimicable 
to our interests. That is why we think that these recent 
breakthroughs we have had on terrorists, on exchanging 
screening information with TSC and with the FBI, are major 
steps forward toward making our borders more secure and 
obviously making our passport screening system more robust than 
has heretofore been the case.
    Chairman Collins. Let me read from testimony that you gave 
on the House side just recently. You said, ``We at the 
Department of State are certainly aware of how sought after 
this document is, not only by American citizens with legitimate 
travel plans, but by illegal immigrants, as well as terrorists 
and others who would do this Nation harm. A key objective of 
the Department is to ensure that U.S. passports are issued only 
to persons who are legitimately entitled to them. This is 
particularly important in an era when terrorists, transnational 
criminals, and others seeking to enter the U.S. illegally view 
travel documents as valuable tools.'' This morning you seem to 
be giving a different answer.
    Mr. Moss. I am sorry, Madam Chairman, I misinterpreted your 
question. In my testimony earlier, and even in some of the 
comments I made today, I would like to differentiate between 
what happens in terms of people applying for passports 
domestically, and then the misuse of lost or stolen U.S. 
passports around the world.
    In the case of applying for passports in the United States, 
I am unaware of any information on terrorists doing so, but 
obviously, having the access to the TSC data will help us 
ensure that does not happen.
    The other side of the coin is when passports are lost or 
stolen abroad. There is an active international market that 
supports illegal immigration, transnational crime, and yes, 
terrorism, trying to acquire lost or stolen documents, not just 
from the United States but issued by legitimate governments 
around the world. The 9/11 Commission dealt with this in depth 
both in its comprehensive report as well as in an appendix it 
wrote on the issue of terrorist travel.
    In terms of trying to prevent the misuse of U.S. passports, 
I would mention, for example, that whenever we become aware of 
a lost or stolen U.S. passport, we provide that data to 
INTERPOL so that it can be shared with governments throughout 
the world. We have given INTERPOL information on some 660,000 
lost or stolen passports over the last year. That is several 
years worth of data, but it shows our commitment to try to 
prevent the misuse of the U.S. passport.
    We also invalidate the use of a U.S. passport for travel 
once it has been reported as lost or stolen.
    And the third point I would say is we have taken dramatic 
steps to improve the physical security of the U.S. passport, so 
that one of the longstanding vulnerabilities, which was 
changing the photograph, the tactic we all saw in the movies 
made in the 1960's, that just simply cannot be done now. We 
think we have a very robust passport physically as well as 
systems to prevent the misuse.
    Thank you.
    Chairman Collins. Mr. Moss, I agree with you that the 
passport has improved greatly as far as becoming very difficult 
to counterfeit, but that is not the focus of the GAO report, 
nor our previous witnesses. What they are trying to alert you 
to are very serious vulnerabilities where phony breeder 
documents such as phony birth certificates or driver's licenses 
could be used to secure a legitimate U.S. passport. We are not 
talking about a stolen or lost passport falling into terrorist 
hands. We are talking about vulnerabilities in the system that 
could be exploited by terrorists using phony birth certificates 
to obtain a U.S. passport, and that is what the GAO has tried 
to alert you to, and that is what Mr. Johnson's testimony 
suggests is a real problem.
    Mr. Moss. Well, Madam Chairman, first of all, I do want to 
thank the GAO for their work. They have alerted us to areas we 
have to make improvements in. And I would like to thank you as 
well, because in the Intelligence Reform Bill that you passed 
last December, there were some important developments that 
apply to this very issue you have talked about, moves toward 
Federal standards for birth certificates, for example.
    My understanding is that right now there are 8,000 
different jurisdictions in the United States that issue birth 
certificates, and there are something like 50,000 different 
types of birth certificates in circulation. The same applies 
clearly to the issue of driver's licenses.
    The third point I would make is that is why it is so 
important, we believe, to give so much training and so much 
close management supervision to our passport specialists. These 
are the people we depend upon to identify fraudulent documents 
by their look, by their feel, by relationships between that 
document and what the passport application says. This is an 
area where we are making major investments.
    The fourth point I would say is clearly we continue to 
strengthen our fraud prevention program activities. For 
example, mention was made of lost and stolen birth certificates 
issued here in the United States. We have a particular concern 
over one jurisdiction in the United States. We talked a little 
bit about Hudson County in the earlier round of testimony, but 
the other thing is that in one case involving, quite honestly, 
Puerto Rico, we do subject any passport applications supported 
by a Puerto Rican birth certificate to extraordinary security 
reviews before issuance because of our concern over the 
security of that document.
    So we do have, I believe, a robust system in hand, and it 
will only get better as we move toward Federal standards on 
driver's licenses and birth certificates.
    Chairman Collins. If you are not currently receiving 
information from the Terrorist Screening Center on Americans 
who are on the watch list, how would you know whether or not an 
American with ties to terrorist groups is receiving a passport?
    Mr. Moss. The way I would answer that is the following. For 
about a generation we have depended upon a push system in which 
Federal agencies and State and local law enforcement 
authorities have shared data with us on persons of particular 
concern to us. We are now trying to go to a system where 
basically we pull that data from other databases. That is why 
access to the TSC database is so important. The same applies to 
Mr. Bush's offer of access to NCIC. I think we have a good 
system right now. Can it get better? Yes. And I think that the 
GAO report has advanced that process. The cooperation of my 
colleagues here at the table will help us to do a better job in 
the future.
    But let me assure you, if any agency at this table or 
another Federal agency or a State or local authority has a 
concern about an individual, they can tell us right now. They 
know how to get in touch with us. We will put that person in 
the lookout system and prevent passport issuance to them until 
we have resolved that problem.
    Chairman Collins. Mr. Moss, in your written testimony you 
said the Department of State is about to sign an agreement with 
the Terrorist Screening Center that will provide information on 
American citizens who are of concern to TSC due to the nexus to 
terrorism or an ongoing investigation. I believe I heard you 
say this morning that you have signed it. Could I ask when it 
was signed?
    Mr. Moss. It was signed last evening by the two agencies, 
including by Donna Bucella here at the my left.
    Chairman Collins. See, sometimes oversight hearings do have 
the desired result. [Laughter.]
    I am very pleased to learn that it has been signed. I think 
that is a really important improvement to make.
    Ms. Bucella, let me ask you, the Terrorist Screening Center 
was sharing information on visas with the State Department, why 
was there not sharing of information on U.S. citizens of 
particular concern?
    Ms. Bucella. Chairman Collins, I wish that I could tell you 
when we set up the Terrorist Screening Center I just went 
around to different government agencies and knocked on their 
doors and they gave me their list.
    What we have had has been a tremendous effort in trying to 
gather the names of all suspected, known, international and 
domestic terrorists from all the different agencies. What we 
had to do is gather information in various forms. Some had full 
names, some had partial dates of birth. We had to prioritize, 
and still trying to gather our arms as the U.S. Government as 
to all the names.
    And so one of our first priorities was preventing people 
from coming into the country, and so we went through the--
obviously, when we were set up, the State Department donated 
part of their Tipoff staff to us, but that Tipoff staff dealt 
solely with those individuals that were applying for visas, 
keeping people outside the country. So we loaded up our system 
using the Tipoff system. It was not until, I believe, January 
of this year, when we were having discussions with the State 
Department, that we realized that there was yet another 
screening opportunity, and that was the U.S. passports.
    And so the reason why--I read the GAO report, and when it 
had that we were not cooperating, we were. We were just trying 
to figure out what it is that you want, what it is that you 
need, and how can we get it to you. And so that was the 
discussion that we have had over the last couple of months with 
our lawyers and making sure that we complied with the privacy 
laws and things, and that is why we have recently just signed 
the Memorandum of Understanding.
    The implementation of this--because it is a technology 
issue, it is really the connectivity--will be done before 
August of this year.
    Chairman Collins. Mr. Moss, did the State Department ask 
for this information?
    Mr. Moss. Madam Chairman, we have an effort going back 2 or 
3 years now, trying to reach out to Federal agencies to acquire 
additional information to put into our screening system. One of 
our first successes was the U.S. Marshals Service. We were then 
looking for other databases. By last December the letter left 
us and arrived in January at TSC, it is almost immaterial. 
Between ourselves we identified an opportunity to strengthen 
our passport lookout system by incorporating the TSC's 
information, and we have been working together since then.
    And I would say the same applies to the FBI. We are trying 
to make this database richer, and now of course, not only do we 
have an offer of 7,000 additional names of persons subject to 
Federal warrants, but this great development over access to 
persons who are subject to State warrants and local warrants as 
well.
    Chairman Collins. Mr. Bush, that leads me into a question 
for you. It seems to me that the FBI has a very strong interest 
in making sure that fugitives do not gain access to passports 
that they could use to flee the country. Can you explain to us 
why the FBI took so long to make the names of its fugitives 
available to the State Department so that you could be alerted 
if one of these fugitives applied for a passport? I find it so 
inconceivable that we have posters of the Ten Most Wanted in 
our Post Offices, and yet we are not sharing that information 
in databases throughout our government.
    Mr. Bush. And let me backup what Mr. Moss has said. 
Historically--and I was a fugitive hunter in the 1980's in the 
Washington Field Office, and we were always encouraged and had 
procedures to put stops individually, as he says, in a push 
type of format with the State Department, and we often did 
individually. So case agents--and I cannot speak about these 
particular cases that were up here--had the opportunity, always 
have had, and I know we took collectively large numbers of 
fugitives and persons of interest and put them in the Tipoff 
system, which when CLASS was searched would designate the fact 
that they were wanted. But clearly, with the examples given 
here, there were opportunities to catch individuals that were 
applying that were not taken advantage of by our case agents on 
an individual basis.
    So as we move into this process to ensure in their pool 
process to get as many in there as we can, then we will clearly 
fill some of those gaps that we have had. But it has always 
been--I remember doing it myself with the State Department, so 
always had that option. We clearly did not put all of them in 
there.
    I think some of it was a resource issue. When you talk 
about issuing 10 million passports a year that are name-based, 
when NCIC records about a 10 percent or plus 10 percent hit 
rate, so you are looking at about a million hits there on names 
that are phonetic searches. And they did not even used to be 
exact date of birth, they had a range. So you would pull out a 
lot of false positives. So you had an impact there on resources 
at the State Department and within the FBI, and that is what we 
need to work around with access even to these 1.2 million 
fugitives. That is going to create a lot of hit activity. That 
is the back side to sharing information. It is the what do you 
do with it when you get it and you get these hits? That is what 
we want to work with them closely with, to a mutually agreeable 
system of applying that service.
    Chairman Collins. It seems a very burdensome, labor-
intensive process, however, to rely on individual case agents 
trying to guess whether a fugitive is at risk of flight and 
alerting the State Department. It seems much more efficient to 
have a database sharing where perhaps you do not share all 1 
million fugitives' names, but you do those convicted of serious 
crimes. I mean it seems to me that you can deal with the data 
issue overwhelming the system by selecting it based on the 
seriousness of the crime, but it is disturbing to me that the 
GAO's limited review found so many instances of fugitives who 
had committed extremely serious crimes, and yet were not 
included in the State Department system, and indeed, the GAO, 
despite a very limited review, was able to come up with some 
very egregious cases.
    So I hope the FBI will work to come up with a system that 
automatically shares the names of fugitives who have been 
convicted, or who are wanted for serious crimes.
    Mr. Bush. And clearly, there are more effective means. 
There are other means with checking passenger manifests and 
putting stops in the Treasury enforcement computer system that 
would also pick up on some of these fugitives' travel, and the 
fact that they obviously do not always use their true name. In 
the case here, they obviously did.
    But I think our mutual goal is to do the best we can and to 
make it better wherever we can, whether it is terrorist related 
or fugitive related.
    Chairman Collins. Mr. Moss, one other question for you. We 
talked a lot about the information sharing challenges and the 
need to improve that, and indeed the agreement signed last 
night, I think, is a very good step in the right direction, as 
well as good timing for this hearing.
    But the GAO and Mr. Johnson also identified a number of 
other weaknesses in the State Department's overall fraud 
prevention program. For example, GAO was critical of the 
limited oversight and training of acceptance agents, the lack 
of a consistent nationwide training program, the absence of a 
centralized and up-to-date electronic fraud prevention library, 
and the fact that headquarters' responsibility for fraud 
prevention support is somewhat unclear. Mr. Johnson raised 
concerns about the elimination of the assistant fraud manager 
position, and suggested also that not enough resources are 
focused on fraud detection and prevention.
    What steps is the State Department taking to address these 
concerns which are organizational, resource, training, or 
oversight concerns?
    Mr. Moss. I think we are in fact addressing each and every 
one. Let me begin with the issue of the so-called elimination 
of the anti-fraud, assistant anti-fraud program managers.
    What we had was a situation where we had a couple of people 
encumbering these positions and some other people who had been 
assigned to this function basically on informal details at the 
passport agency level. What we are trying to do, Madam 
Chairman, in this effort, is to make certain that the knowledge 
that is held by our fraud program managers really gets to--for 
want of a better term, the passport floor. Passport fraud is 
identified by our passport specialists. They are the people who 
literally see the application, look at databases, touch the 
birth certificates and things like this.
    What we are trying to do by our current strategy is to 
rotate our supervisory passport specialists through the anti-
fraud program office, have them spend 3 to 6 months there, 
understand the anti-fraud tools, and then go back to help train 
their own staff.
    Second, we have also implemented a centralized training 
program for our new passport specialists so that they all have 
a thorough grounding in passport fraud detection efforts.
    I should also talk a little bit about resources, both in 
terms of the passport side, and I would also like to mention 
briefly some developments on the Diplomatic Security side. We 
are continuing to hire additional personnel. Our workload is 
growing dramatically. You are well aware, of course, of the 
Western Hemisphere Initiative that is coming along as well. We 
are not trying to overburden our staffs. We are trying to hire 
and keep our staff ratios in line with our workload. Also our 
colleagues at Diplomatic Security have gone to a new model for 
staffing their own offices around the country. They are 
beginning to assign civil service personnel to those offices as 
investigators so that they have the long-term continuity that 
Mr. Johnson mentioned in his testimony.
    On the question of the acceptance agents, I think there are 
two things I would like to mention. First of all, most of the 
acceptance agents are employees of the U.S. Postal Service, 
have been vetted by the U.S. Postal Service, and are U.S. 
citizens. The U.S. Postal Service has developed a computerized-
based training program for those people. We are so impressed 
with it that we are actually acquiring rights to use it to help 
train those non-Postal Service acceptance agents, clerks of 
court, a handful of universities, things like this, some public 
libraries around the United States. We also use our own 
customer service staffs in the passport agencies to do outreach 
to these agencies.
    The final point I would say is that if an acceptance agent 
has any question about a passport application, they simply 
accept it, they flag it for us, and we take it from there. They 
have a very limited role, basically, to ensure that the person 
applying for a passport is who they claim to be. We make the 
decision on passport issuance. That is inherently a Federal 
Government responsibility.
    So I really think that between our work with DS, the 
additional personnel we are assigning to the anti-fraud program 
responsibilities at our largest agencies, our rotational 
activities, and our training opportunities for all of our 
staffs that we already had in place, we have a robust strategy 
to help address many of the suggestions and recommendations 
made by the GAO.
    Chairman Collins. Thank you for that summary statement.
    I want to thank all of the witnesses who have participated 
in our hearing today.
    As Mr. Moss indicated, this Committee spent a great deal of 
time last year drafting intelligence reform legislation--
sweeping reforms. One of the major issues that we focused on in 
the hearings as a result of the 9/11 Commission report was the 
lack of information sharing among Federal agencies, a lack that 
prevented agencies from putting together the pieces of the 
puzzle that might have allowed us to thwart the attacks on our 
country on September 11, and that is why it is particularly 
frustrating to me personally to see that there are still 
serious examples of a lack of consistent information sharing 
that could be harmful to our homeland security.
    In the case that the GAO has identified and that you are 
all working to remedy, it is particularly frustrating to me 
because it does not require a new law to be passed. It does not 
require a new Executive Order. It does not require a massive 
new appropriation. What it requires is simply to have agencies 
working together to share vital information to help protect our 
Nation against terrorists and other criminals who would do us 
harm.
    I want to close this hearing by urging you to work very 
closely together to improve the system. I realize there are 
technological challenges. I realize there are the problems of 
false positives. But in this age of databases and computers, 
surely we ought to be able to come up with a system that allows 
us to stop issuing passports to fugitives wanted for serious 
crimes, and to terrorists. I do not feel confident that we have 
such a system now. I believe we are making progress, and I 
think the agreement signed is a major step in the right 
direction. But I urge you to redouble your efforts. This is so 
important. I think Secretary Powell was correct when he said 
that the integrity of the U.S. passport is absolutely essential 
in the global war on terrorism.
    So this is an issue that the Committee is going to continue 
to follow very closely. We look forward to getting an update 
from you as implementation goes forward, as you meet the August 
goal that you have set for implementation. I realize there will 
be challenges, both from technology and privacy concerns and 
other issues, but surely we can do better.
    Again, I thank you for your cooperation with this 
investigation, and I look forward to working not only with this 
panel, but our previous one, to make sure that the system for 
issuing passports is as secure as it can possibly be. Thank you 
for being here today.
    The hearing record will remain open for 15 additional days.
    I want to thank the GAO for its excellent investigation in 
this area, and I want to thank my staff for their hard work.
    This hearing is now adjourned.
    [Whereupon, at 11:16 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T2199.001

[GRAPHIC] [TIFF OMITTED] T2199.003

[GRAPHIC] [TIFF OMITTED] T2199.004

[GRAPHIC] [TIFF OMITTED] T2199.005

[GRAPHIC] [TIFF OMITTED] T2199.006

[GRAPHIC] [TIFF OMITTED] T2199.007

[GRAPHIC] [TIFF OMITTED] T2199.008

[GRAPHIC] [TIFF OMITTED] T2199.009

[GRAPHIC] [TIFF OMITTED] T2199.010

[GRAPHIC] [TIFF OMITTED] T2199.011

[GRAPHIC] [TIFF OMITTED] T2199.012

[GRAPHIC] [TIFF OMITTED] T2199.013

[GRAPHIC] [TIFF OMITTED] T2199.014

[GRAPHIC] [TIFF OMITTED] T2199.015

[GRAPHIC] [TIFF OMITTED] T2199.016

[GRAPHIC] [TIFF OMITTED] T2199.017

[GRAPHIC] [TIFF OMITTED] T2199.018

[GRAPHIC] [TIFF OMITTED] T2199.019

[GRAPHIC] [TIFF OMITTED] T2199.020

[GRAPHIC] [TIFF OMITTED] T2199.021

[GRAPHIC] [TIFF OMITTED] T2199.022

[GRAPHIC] [TIFF OMITTED] T2199.023

[GRAPHIC] [TIFF OMITTED] T2199.024

[GRAPHIC] [TIFF OMITTED] T2199.025

[GRAPHIC] [TIFF OMITTED] T2199.026

[GRAPHIC] [TIFF OMITTED] T2199.027

[GRAPHIC] [TIFF OMITTED] T2199.028

[GRAPHIC] [TIFF OMITTED] T2199.029

[GRAPHIC] [TIFF OMITTED] T2199.030

[GRAPHIC] [TIFF OMITTED] T2199.031

[GRAPHIC] [TIFF OMITTED] T2199.065

[GRAPHIC] [TIFF OMITTED] T2199.066

[GRAPHIC] [TIFF OMITTED] T2199.067

[GRAPHIC] [TIFF OMITTED] T2199.032

[GRAPHIC] [TIFF OMITTED] T2199.033

[GRAPHIC] [TIFF OMITTED] T2199.034

[GRAPHIC] [TIFF OMITTED] T2199.035

[GRAPHIC] [TIFF OMITTED] T2199.036

[GRAPHIC] [TIFF OMITTED] T2199.037

[GRAPHIC] [TIFF OMITTED] T2199.038

[GRAPHIC] [TIFF OMITTED] T2199.039

[GRAPHIC] [TIFF OMITTED] T2199.040

[GRAPHIC] [TIFF OMITTED] T2199.041

[GRAPHIC] [TIFF OMITTED] T2199.042

[GRAPHIC] [TIFF OMITTED] T2199.043

[GRAPHIC] [TIFF OMITTED] T2199.044

[GRAPHIC] [TIFF OMITTED] T2199.045

[GRAPHIC] [TIFF OMITTED] T2199.046

[GRAPHIC] [TIFF OMITTED] T2199.047

[GRAPHIC] [TIFF OMITTED] T2199.048

[GRAPHIC] [TIFF OMITTED] T2199.049

[GRAPHIC] [TIFF OMITTED] T2199.050

[GRAPHIC] [TIFF OMITTED] T2199.051

[GRAPHIC] [TIFF OMITTED] T2199.052

[GRAPHIC] [TIFF OMITTED] T2199.053

[GRAPHIC] [TIFF OMITTED] T2199.054

[GRAPHIC] [TIFF OMITTED] T2199.055

[GRAPHIC] [TIFF OMITTED] T2199.056

[GRAPHIC] [TIFF OMITTED] T2199.057

[GRAPHIC] [TIFF OMITTED] T2199.058

[GRAPHIC] [TIFF OMITTED] T2199.059

[GRAPHIC] [TIFF OMITTED] T2199.060

[GRAPHIC] [TIFF OMITTED] T2199.061

[GRAPHIC] [TIFF OMITTED] T2199.062

[GRAPHIC] [TIFF OMITTED] T2199.063

[GRAPHIC] [TIFF OMITTED] T2199.064

                                 <all>

</pre></body></html>
